Este Acuerdo de Tarjeta de Crédito es una traducción de la versión en inglés disponible en el sitio web de
Bank of America.

Ejemplo de Acuerdo de Tarjeta de Crédito para
cuentas Bank of America® World Elite Mastercard®

Esta información estuvo correcta al 30 de Junio de 2021.

Este programa de tarjetas de crédito es emitido y administrado por Bank of America, N.A. Mastercard y
World Elite Mastercard son marcas comerciales registradas de Mastercard International Incorporated, y
son utilizadas por el emisor bajo licencia. Bank of America es una marca comercial registrada de Bank of
America Corporation.

1

INFORMACIÓN SOBRE PRECIOS
Los precios reales varían entre un titular de tarjeta y otro
Tasas de Porcentaje Anual para Compras
Estas tasas APR variarán con el
mercado de acuerdo con la Tasa
Preferencial (a partir del
06/30/2021)

del Tasa Preferencial + 12.74% al Tasa Preferencial + 20.74%
(APR) del 15.99% al 23.99%
(DPR) del 0.043808% al 0.065726%

Tasas de Porcentaje Anual para
Transferencias de Saldo
Estas tasas APR variarán con el
mercado de acuerdo con la Tasa
Preferencial (a partir del
06/30/2021)

del Tasa Preferencial + 12.74% al Tasa Preferencial + 20.74%
(APR) del 15.99% al 23.99%
(DPR) del 0.043808% al 0.065726%

Tasas de Porcentaje Anual para Depósito
Directo de Adelanto de Dinero en
Efectivo y Cheques de Adelanto de
Dinero en Effectivo
Estas tasas APR variarán con el
mercado de acuerdo con la Tasa
Preferencial (a partir del
06/30/2021)

del Tasa Preferencial + 15.74% al Tasa Preferencial + 23.74%
(APR) del 18.99% al 26.99%
(DPR) del 0.052027% al 0.073945%

Tasas de Porcentaje Anual para
Adelantos de Dinero en Efectivo del
Banco
Estas tasas APR variarán con el
mercado de acuerdo con la Tasa
Preferencial (a partir del
06/30/2021)
Tasa APR de Penalización y Casos en que
Se Aplica

del Tasa Preferencial + 23.99% al Tasa Preferencial + 25.74%
(APR) del 27.24% al 28.99%
(DPR) del 0.074630% al 0.079424%
Hasta 29.99%, de acuerdo con su capacidad de crédito. Esta tasa APR variará
con el mercado de acuerdo con la Tasa Preferencial.
Esta tasa APR podrá aplicarse a las nuevas transacciones en su cuenta si
usted:
• Efectúa un pago atrasado.

Pago de Intereses

Cargo Mínimo por Intereses

¿Cuánto Tiempo Se Aplicará la Tasa APR de Penalización?: si su tasa
APR aumenta por esta razón, la tasa APR de Penalización se aplicará por
tiempo indefinido.
Su fecha de vencimiento es de al menos 25 días posteriores al cierre de cada
ciclo de facturación. No le cobraremos ningún tipo de intereses sobre las
compras si usted paga la totalidad de su saldo a más tardar en la fecha de
vencimiento cada mes. Comenzaremos a cobrar intereses sobre adelantos de
dinero en efectivo y transferencias de saldo en la fecha de la transacción.
Si se le cobran a usted intereses, el cargo no será inferior a $1.50.

1

Cargos de la Cuenta
Cuota Anual

$79 hasta $90

Cargos por Transacción
Transferencia de Saldo - % de la
transacción

3% (mínimo: $10; máximo: sin límite)

Adelanto de Dinero en Efectivo
del Cajero Automático - % de
la transacción

5% (mínimo: $10; máximo: sin límite)

Equivalente de Dinero en
Efectivo - % de la transacción

5% (mínimo: $10; máximo: sin límite)

Cheque de Adelanto de Dinero en
Efectivo - % de la transacción

3% (mínimo: $10; máximo: sin límite)

Depósito Directo - % de la
transacción

3% (mínimo: $10; máximo: sin límite)

Cargo por Protección contra
Sobregiros

Para transferencias a una cuenta de depósito vinculada de Bank of America
abierta en GA, IL, KY, MI o TN:
Antes del 18 de junio de 2021: $12 por cada transacción facturada
a su cuenta de tarjeta de crédito
Vigente a partir del 18 de junio de 2021: no se fijará ningún cargo
en su cuenta de tarjeta de crédito*
Para transferencias a una cuenta de depósito vinculada de Bank of America
abierta en todas las demás ubicaciones:
Antes del 20 de agosto de 2021: $12 por cada transacción
facturada a su cuenta de tarjeta de crédito
Vigente a partir del 20 de agosto de 2021: no se fijará ningún cargo
en su cuenta de tarjeta de crédito*

Adelanto de Dinero en Efectivo en
Mostrador - % de la transacción

5% (mínimo: $10; máximo: sin límite)

Adelanto de Dinero en Efectivo
en Línea en el Mismo Día - % de
la transacción

5% (mínimo: $10; máximo: sin límite)

Transferencias por Cable - % de
la transacción

5% (mínimo: $10; máximo: sin límite)

Cargos de Penalización
Cargo por Pago Atrasado

Hasta $40

Cargo por Pago Devuelto

Hasta $29

*Su cuenta de depósito vinculada puede estar sujeta a un cargo de $12.00 por cada transacción en virtud de su acuerdo de
cuenta de depósito.
De Qué Manera Calcularemos Su Saldo: para los saldos de Compras, utilizaremos un método denominado "saldo promedio
diario (incluidas las Compras nuevas)". Consulte la sección titulada Saldos Sujetos a Tasa de Interés en su Acuerdo de Tarjeta de
Crédito para obtener más detalles.
Para los saldos de Transferencias de Saldo y Adelantos de Dinero en Efectivo, utilizaremos un Método de Saldo Promedio
(incluidas las nuevas Transferencias de Saldo y los nuevos Adelantos de Dinero en Efectivo): este saldo se calcula sumando el
saldo pendiente (incluidas las nuevas Transferencias de Saldo y los nuevos Adelantos de Dinero en Efectivo, y restando pagos y
créditos) para cada día del ciclo de facturación actual, junto con los saldos correspondientes a cada día del ciclo de facturación
anterior para transferencias de saldo y adelantos de dinero en efectivo con fechas de transacción correspondientes al ciclo
anterior y fechas de registro correspondientes al ciclo actual, y luego dividiendo por la cantidad de días del ciclo de facturación
actual.

2

Divulgación de la Ley de Préstamos para Militares: la siguiente divulgación se aplica a las personas cubiertas por la Ley de
Préstamos para Militares (Military Lending Act, o MLA). Es posible que también rijan o se apliquen otras leyes o programas
gubernamentales para esta transacción pero no están descritos en la siguiente divulgación. La Ley de Préstamos para Militares
exige la siguiente divulgación.
Las leyes federales brindan protecciones importantes a los miembros de las Fuerzas Armadas y a sus dependientes en relación
con prórrogas de crédito del consumidor. En general, puede que el costo de crédito del consumidor para un miembro de las
Fuerzas Armadas y su dependiente no exceda una tasa de porcentaje anual del 36 por ciento. Esta tasa debe incluir, según
corresponda a la cuenta o transacción de crédito: los costos relacionados con las primas del seguro de crédito; los cargos por
productos auxiliares vendidos en relación con la transacción de crédito; los cargos por solicitud cobrados (que no sean en
particular cargos por solicitud de crédito para cuentas o transacciones de crédito específicas); y los cargos de participación
cobrados (que no sean ciertos cargos de participación para una cuenta de tarjeta de crédito).
Consulte la sección Pago Mínimo Total que Vence del Acuerdo de Tarjeta de Crédito adjunto a esta divulgación para ver cómo se
calcula su pago mínimo mensual.
Si tiene alguna pregunta o inquietud, llame a nuestro número gratuito dedicado de la Ley de Préstamos para Militares (MLA) al
844.441.9168 o por cobro revertido al 302.318.8745.

3

ACUERDO DE TARJETA DE CRÉDITO
SU CONTRATO CON NOSOTROS

relacionado con su tarjeta de crédito a partir de la apertura de su
cuenta. Se le puede solicitar que utilice su PIN para efectuar un
adelanto de dinero en efectivo en un cajero automático (ATM) o
para completar compras en determinados terminales de comercios,
generalmente en el extranjero. Puede obtener su PIN en nuestro
sitio de Banca en Línea o en nuestra aplicación móvil, o
comunicándose con nosotros. Un cheque de acceso es un cheque
que le proporcionamos a usted para obtener crédito en esta cuenta.
Todos los cheques de acceso incluyen una fecha de vencimiento
impresa en la parte superior. Aceptaremos los cheques de acceso
recibidos para su pago antes de la fecha de vencimiento impresa en
el cheque, siempre que su cuenta se encuentre abierta, en buenos
términos y con crédito disponible. Los cheques de acceso que no
tengan una fecha de vencimiento impresa no se aceptarán.

Este documento, y cualquier modificación futura en el mismo,
constituyen su contrato con nosotros. Haremos referencia a este
documento como su "Acuerdo" o "Acuerdo de Tarjeta de Crédito";
estos términos también incluyen cualquier modificación que
efectuemos en este documento de forma periódica.
Nos reservamos el derecho a enmendar este Acuerdo en
cualquier momento, agregando, eliminando o modificando
disposiciones de este Acuerdo. Todas las enmiendas cumplirán con
los requisitos aplicables de notificación de las leyes federales y las
leyes de Carolina del Norte que se encuentran vigentes en ese
momento.
Si una enmienda le proporciona a usted la oportunidad de rechazar
la modificación, y si usted rechaza la modificación de la manera
dispuesta en dicha modificación, podremos dar por terminado su
derecho a recibir crédito y solicitarle que devuelva todos los
instrumentos de crédito como condición para su rechazo. Podremos
reemplazar su tarjeta por otra tarjeta en cualquier momento.

Compra significa la utilización de su tarjeta o su número de cuenta
(lo cual incluye a través del uso de un dispositivo móvil habilitado)
para:
1. comprar o alquilar productos o servicios;
2. comprar transferencias por cable de una institución no
financiera (Compra de Transferencias por Cable);
3. realizar una transacción que de otra manera no sea un
Adelanto de Dinero en Efectivo.

Los motivos por los cuales podremos enmendar este Acuerdo
incluyen los siguientes:
• Modificaciones de normas o de legislaciones, o una
modificación en la interpretación de una norma o
legislación.

Las Compras incluyen los Cargos de la Cuenta, como así también
los Cargos por Transacción y los ajustes asociados con cualquier
Compra.

• Modificaciones relacionadas con su historial de crédito
individual, como por ejemplo: su perfil de riesgo, sus
hábitos de pago o de transacciones, hábitos de saldo,
los niveles de utilización de ésta y otras cuentas,
información proveniente de agencias de informes
crediticios que incluye la antigüedad, el historial y el
tipo de otras cuentas, y la medición de riesgo asociada
con cada una.

Transferencia de Saldo significa una transferencia de fondos
hacia otro acreedor iniciada por nosotros a solicitud de usted. Una
Transferencia de Saldo no incluye una transacción que de otra
manera sea un Adelanto de Dinero en Efectivo. Las Transferencias
de Saldo incluyen los Cargos por Transacción y los ajustes
asociados con cualquier Transferencia de Saldo.
Un Adelanto de Dinero en Efectivo significa la utilización de su
cuenta para un préstamo de las siguientes formas:

• Modificaciones en las tendencias generales
económicas y del mercado, el diseño de productos y las
necesidades comerciales.

1. Depósito Directo: mediante una transferencia de
fondos a través de una transacción de la Cámara de
Compensación Automatizada (ACH) hacia una cuenta
de depósito iniciada por nosotros a solicitud de usted.
Un Depósito Directo no incluye un Adelanto de Dinero
en Efectivo de la Protección contra Sobregiros ni un
Adelanto de Dinero en Efectivo en Línea en el Mismo
Día.
2. Cheque de Adelanto de Dinero en Efectivo:
mediante un cheque de acceso que usted firme como
girador.
3. Adelanto de Dinero en Efectivo del Banco:
mediante préstamos a los que se acceda de la
siguiente manera:
a. Adelanto de Dinero en Efectivo del Cajero
Automático (ATM): en un cajero automático;
b. Adelanto de Dinero en Efectivo En
Mostrador ("OTC"): en cualquier institución
financiera (por ejemplo, para obtener dinero en
efectivo, giros monetarios, transferencias por
cable o cheques de viajero);
c. Adelanto de Dinero en Efectivo en Línea en
el Mismo Día: mediante la transferencia de
fondos en línea en el mismo día a una cuenta de
depósito;

"Nosotros", "nos", "nuestro(a)", "nuestros(as)" significan Bank of
America, N.A.
"Usted" y "su(s)" significan todas y cualquiera de las personas a
quienes se les otorga y que aceptan o utilizan la cuenta, y cualquier
persona que haya garantizado el pago de la cuenta.
Usted puede utilizar su cuenta para propósitos personales,
familiares o domésticos. Usted no podrá utilizar su cuenta con fines
de negocios o comerciales.
Nuestra omisión o demora en el ejercicio de cualquiera de nuestros
derechos en virtud de este Acuerdo no significa que no podamos
ejercer dichos derechos posteriormente.

TIPOS DE TRANSACCIONES

Usted puede obtener crédito en forma de Compras,
Transferencias de Saldo y Adelantos de Dinero en Efectivo,
mediante la utilización de tarjetas, cheques de acceso, un número
de cuenta u otros instrumentos de crédito. Las Transferencias de
Saldo y determinados Adelantos de Dinero en Efectivo tal como
Depósitos Directos son puestos a su disposición a nuestra
discreción. Tarjetas son todas las tarjetas de crédito que le
emitimos a usted y a cualquier otra persona con autorización para
utilizarlas en esta cuenta conforme a este Acuerdo. Firme su tarjeta
antes de utilizarla. Un Número de Identificación Personal (PIN) está

1

d. Adelanto de Dinero en Efectivo de la
Protección contra Sobregiros: mediante una
transferencia de fondos a una cuenta de depósito
en virtud de un programa de protección contra
sobregiros (consulte la sección titulada Protección
contra Sobregiros a continuación);
e. Equivalentes de Dinero en Efectivo: mediante
la compra de moneda extranjera, giros
monetarios, cheques de viajero, u obtener dinero
en efectivo, cada uno de una institución no
financiera, o transferencias monetarias de
persona a persona, apuestas, billetes de lotería
comprados fuera de los Estados Unidos, fichas de
juego de casino, criptomoneda, o fianzas, con su
tarjeta o número de cuenta (lo cual incluye a
través del uso de un dispositivo móvil habilitado).

de Mastercard se basa en (a) tasas observadas en el mercado
mayorista o (b) tasas fijadas por el gobierno, donde corresponda,
para la fecha de la transacción o la fecha de procesamiento. La tasa
de conversión de divisas vigente en la fecha de procesamiento
puede ser distinta de la tasa vigente en la fecha de la transacción o
en la fecha de registro.

INTERESES Y CARGOS

TASAS DE INTERÉS-TASAS DE PORCENTAJE ANUAL (APR)
Esta sección establece las tasas de interés, denominadas también
Tasas de Porcentaje Anual (APR) correspondientes, que aplican a su
cuenta. La tasa APR corresponde a la Tasa Periódica Diaria (DPR): la
tasa APR equivale a la tasa DPR multiplicada por 365, y la tasa DPR
equivale a la tasa APR dividida por 365. Los cargos por intereses se
calculan utilizando la tasa DPR. Si una tasa es una tasa variable,
calculamos dicha tasa APR mediante la suma de un índice y un
margen. Para obtener más información sobre tasas variables,
consulte la sección dentro de este resumen titulada Cómo Calcular
Tasas Variables.

Los Adelantos de Dinero en Efectivo incluyen los Cargos por
Transacción y los ajustes asociados con cualquier Adelanto de
Dinero en Efectivo.

TASAS, CUOTAS Y CARGOS PROMOCIONALES
Las Ofertas Promocionales o Introductorias son tasas APR
temporales (Tasas Promocionales o Introductorias) o cargos por
transacción temporales (Cargos Promocionales o Introductorios)
que se ofrecen en determinadas transacciones nuevas que
califiquen durante un período de tiempo especificado. A cada Oferta
se le asignará una Identificación de Oferta única que aparecerá en
el estado de cuenta de su tarjeta de crédito luego de la primera
transacción nueva que califique para dicha Oferta. Si usted renueva
su saldo para aprovechar una Oferta Promocional o Introductoria,
se cobrarán intereses sobre todas las transacciones y saldos,
incluidas las compras.

Todos los Adelantos de Dinero en Efectivo del Banco se encuentran
sujetos a la Línea de Crédito en Efectivo. Para obtener más
información sobre líneas de crédito, por favor consulte la sección
dentro de este Acuerdo titulada Sus Líneas de Crédito.
Usted acepta que podemos confiar en la información proporcionada
por los comerciantes y su red de pago aplicable para clasificar las
transacciones como Compras, Transferencias de Saldo, o varios
tipos de Adelantos de Dinero en Efectivo.
SU CUENTA DE TARJETA DE CRÉDITO Y SU TELÉFONO
MÓVIL U OTROS DISPOSITIVOS MÓVILES
Los teléfonos inteligentes, algunas tabletas u otros dispositivos
móviles (un “dispositivo móvil”) pueden descargar, almacenar y/o
acceder a información de la cuenta, por ejemplo a través de una
billetera electrónica, lo cual puede permitirle utilizar el dispositivo
móvil para comprar productos o servicios, realizar una transferencia
de saldo o realizar un adelanto de dinero en efectivo.

TASAS ACTUALES
Su tasa actual es la tasa que se aplicará a las transacciones que no
se encuentren sujetas a una Tasa Introductoria o Promocional.
[consulte la tabla de Información sobre Precios para conocer las
tasas actuales]

En determinados casos, dichas transacciones replicarán el uso de su
tarjeta para realizar una transacción en Internet con su
computadora. En otros casos, el teléfono o dispositivo móvil
actuará como si fuera una tarjeta de crédito en sí mismo. Las
aplicaciones que habilitan su dispositivo móvil tendrán términos
individuales que rigen dichas aplicaciones. Léalos detenidamente.
Las transacciones realizadas a través de dichas aplicaciones se
encuentran regidas por este Acuerdo.

TASAS PARA SALDOS PROTEGIDOS
Cuando se aplique en su cuenta un cambio de tasa de interés para
transacciones nuevas, cualquier saldo existente de ese tipo se
identificará como Saldo Protegido en su estado de cuenta. Estos
Saldos Protegidos generalmente se mantienen con su tasa APR
vigente hasta que los saldos se paguen en su totalidad.
TASA APR DE PENALIZACIÓN Y CASOS EN QUE SE APLICA
(Si su cuenta está sujeta a la Tasa de Penalización)
La tasa APR de Penalización se refiere a la tasa o tasas APR que
pueden aplicarse a nuevas Compras, Transferencias de Saldo y
Adelantos de Dinero en Efectivo para determinados casos de
incumplimiento según se describe a continuación.

Cuando la información de su cuenta de tarjeta de crédito sea
accesible a través de su dispositivo móvil, es importante que usted
trate su dispositivo móvil con el mismo cuidado que aplicaría para
su tarjeta de crédito. Por ejemplo, deberá proteger su dispositivo
móvil contra acceso no autorizado. Tenga en cuenta que si usted le
proporciona a alguien su teléfono u otro dispositivo móvil, puede
ser lo mismo que proporcionarle a dicha persona su tarjeta de
crédito.

Podremos aumentar las tasas APR para nuevas transacciones hasta
las tasa APR de Penalización, de acuerdo con su capacidad de
crédito, cada vez que no se reciba un Pago Mínimo Total que Vence
en o antes de su correspondiente Fecha de Vencimiento del Pago.
Podremos optar por establecer coma tasas APR de Penalización
distintas sus tasas APR para Compras, Transferencias de Saldo,
Depósito Directos de Adelanto de Dinero en Efectivo y Cheques de
Adelanto de Dinero en Efectivo, y Adelantos de Dinero en Efectivo
del Banco. Le suministraremos a usted una notificación con un
mínimo de 45 días de anticipación. Una tasa APR de Penalización
que ha sido aumentada permanecerá en vigencia por tiempo
indefinido.

TRANSACCIONES REALIZADAS EN MONEDAS EXTRANJERAS
Si usted realiza una transacción en una moneda extranjera, la
transacción será convertida por Visa International o Mastercard
International, dependiendo de qué tarjeta esté asociada con esta
cuenta, a una cantidad en dólares estadounidenses conforme a las
normativas operativas o procedimientos de conversión vigentes en
el momento en que se procese la transacción. La tasa de conversión
de divisas utilizada por Visa es (a) una tasa seleccionada por Visa
entre una gama de tasas disponibles en los mercados mayoristas de
divisas para la fecha de procesamiento correspondiente, y esa tasa
puede ser distinta de la tasa que recibe Visa; o (b) una tasa fijada
por el gobierno o un organismo rector vigente para la fecha de
procesamiento correspondiente. La tasa de conversión de divisas

Las tasas APR de Penalización son tasas variables que se calculan
utilizando la fórmula de tasa variable con un margen de hasta 26.74
puntos porcentuales; esto da como resultado actualmente una tasa

2

menos su Nuevo Saldo Total de su ciclo de facturación anterior.

APR del 29.99% (Tasa Periódica Diaria (DPR) del 0.082164%). La
tasa APR de Penalización calculada utilizando esta fórmula de tasa
variable no superará el 29.99%.

Su Fecha de Vencimiento de Pago será, como mínimo, 25 días a
partir de la Fecha de Cierre de su estado de cuenta y corresponderá
al mismo día calendario todos los meses.

CÓMO CALCULAR TASAS VARIABLES
Las Tasas Variables se calculan mediante la suma de un índice y un
margen. Este índice es la Tasa Preferencial más alta de los Estados
Unidos publicada en la sección "Money Rates" de The Wall Street
Journal el último día de publicación de cada mes.

SALDOS SUJETOS A TASA DE INTERÉS
Método de Saldo Promedio Diario (lo cual incluye nuevas
Compras): calculamos por separado los Saldos Sujetos a una Tasa
de Interés para Compras y para cada saldo de Ofertas
Introductorias o Promocionales que consista en Compras de la
siguiente manera: (1) calculando un saldo diario para cada día del
ciclo de facturación actual; (2) sumando todos los saldos diarios; y
(3) dividiendo la suma de los saldos diarios por la cantidad de días
del ciclo de facturación actual.

Un aumento o disminución del índice ocasionará un
correspondiente aumento o disminución de sus tasas variables el
primer día de su ciclo de facturación que comience en el mismo
mes en el cual se publica el índice. Un aumento del índice significa
que usted pagará cargos por intereses más altos y tendrá un Pago
Mínimo Total que Vence más alto. Si The Wall Street Journal no
publica la Tasa Preferencial de los Estados Unidos o si modifica la
definición de la Tasa Preferencial de los Estados Unidos, podremos
sustituirla por otro índice a nuestra única discreción.

Para calcular el saldo diario correspondiente a cada día del ciclo de
facturación actual, hacemos lo siguiente: (1) tomamos el saldo
inicial; (2) le sumamos una cantidad equivalente a la Tasa Periódica
Diaria (DPR) aplicable multiplicada por el saldo diario del día
anterior; (3) le sumamos las nuevas Compras, los nuevos Cargos de
la Cuenta y los nuevos Cargos por Transacción; y (4) le restamos los
pagos y créditos aplicables. Si cualquier saldo diario es menor que
cero, lo consideramos como cero.

CÁLCULO Y FACTURACIÓN DE CARGOS POR INTERESES
Calculamos los intereses multiplicando cada Saldo Sujeto a Tasa de
Interés por su Tasa Periódica Diaria (DPR) aplicable, y ese resultado
se multiplica por la cantidad de días que tenga el ciclo de
facturación. Los intereses se calculan y se registran en el
correspondiente saldo de Compras, Transferencias de Saldo o
Adelantos de Dinero en Efectivo el último día del ciclo de
facturación después de haber registrado todas las demás
transacciones y haber distribuido los pagos.

Método de Saldo Promedio (lo cual incluye nuevas
Transferencias de Saldo y nuevos Adelantos de Dinero en
Efectivo): calculamos por separado los Saldos Sujetos a una Tasa
de Interés para Transferencias de Saldo, Adelantos de Dinero en
Efectivo y para cada saldo de Ofertas Introductorias o
Promocionales que consista en Transferencias de Saldo o Adelantos
de Dinero en Efectivo de la siguiente manera: (1) calculando un
saldo diario para cada día del ciclo de facturación actual; (2)
calculando un saldo diario para cada día anterior al ciclo de
facturación actual que haya tenido un “saldo Anterior al Ciclo” -un
saldo Anterior al Ciclo es una Transferencia de Saldo o un Adelanto
de Dinero en Efectivo con una fecha de transacción anterior al ciclo
de facturación actual, pero con una fecha de registro dentro del
ciclo de facturación actual; (3) sumando todos los saldos diarios; y
(4) dividiendo la suma de los saldos diarios por la cantidad de días
del ciclo de facturación actual.

CICLO DE FACTURACIÓN
Un ciclo de facturación es un período de tiempo que finaliza en la
Fecha de Cierre de un Estado de Cuenta (o Fecha de Cierre)
determinada por nosotros y comienza el día posterior a la Fecha de
Cierre del ciclo de facturación anterior. Cada estado de cuenta
mensual refleja un ciclo de facturación individual.
PAGO DE INTERESES
Cuando correspondan, los intereses se acumulan en forma diaria y
se capitalizan en forma diaria sobre las nuevas transacciones y
sobre los saldos pendientes provenientes de ciclos de facturación
anteriores. Los intereses continuarán acumulándose aunque usted
haya pagado la cantidad total de cualquier saldo relacionado, debido
a que incluimos todos los intereses acumulados pero sin pagar en el
cálculo de cada Saldo Sujeto a Tasa de Interés.

Para calcular el saldo diario correspondiente a cada día del ciclo de
facturación actual, hacemos lo siguiente: (1) tomamos el saldo
inicial; (2) le sumamos una cantidad equivalente a la Tasa Periódica
Diaria (DPR) aplicable multiplicada por el saldo diario del día
anterior; (3) le sumamos las nuevas Transferencia de Saldo, los
nuevos Adelantos de Dinero en Efectivo y los nuevos Cargos por
Transacción; y (4) le restamos los pagos y créditos aplicables. Si
cualquier saldo diario es menor que cero, lo consideramos como
cero.

No le cobraremos a usted ningún tipo de intereses sobre las
Compras si usted paga siempre la totalidad de su Nuevo Saldo Total
a más tardar en la Fecha de Vencimiento de Pago. Específicamente,
usted no pagará intereses correspondientes a un ciclo de
facturación completo sobre Compras si usted efectuó el Pago Total
de los dos Nuevos Saldos Totales anteriores en su cuenta a más
tardar en sus respectivas Fechas de Vencimiento de Pago; de lo
contrario, cada Compra comenzará a acumular intereses en su fecha
de transacción o el primer día del ciclo de facturación, la fecha que
resulte posterior.

Para calcular un saldo diario para cada día anterior al ciclo de
facturación actual que haya tenido un saldo Anterior al Ciclo,
hacemos lo siguiente: (1) tomamos el saldo inicial atribuible
únicamente a un saldo Anterior al Ciclo (que será igual a cero en la
fecha de transacción asociada con el primer saldo Anterior al Ciclo);
(2) le sumamos una cantidad equivalente a la Tasa Periódica Diaria
(DPR) aplicable multiplicada por el saldo diario del día anterior; y (3)
le sumamos únicamente los saldos Anteriores al Ciclo aplicables y
sus Cargos por Transacción relacionados. Excluimos de este cálculo
todas las transacciones registradas en ciclos de facturación
anteriores.

Comenzaremos a acumular intereses sobre Transferencias de Saldo
y Adelantos de Dinero en Efectivo en la fecha de la transacción. La
fecha de transacción para los cheques de acceso es la fecha en que
el cheque es depositado o cobrado por primera vez.
Nuevo Saldo Total significa la cantidad total facturada a la Fecha de
Cierre de un ciclo de facturación, según se indica en su estado de
cuenta mensual.

CARGO MÍNIMO POR INTERESES
Si el total de los cargos por intereses para todos los saldos es
menor que $1.50, se fijará en la cuenta un Cargo Mínimo por
Intereses de $1.50. Este cargo reemplaza a cualquier cargo por
intereses.

Pagar la Totalidad o Pagado en su Totalidad se refiere a pagos y
créditos (sin incluir créditos realizados conforme a los límites de
cargos del primer año o la Ley de Préstamos para Militares [Military
Lending Act]) durante un ciclo de facturación por un total de al

3

estadounidenses y aquellos pagos librados a la orden de una
institución financiera situada fuera de los Estados Unidos. Nos
reservamos el derecho de rechazar cualquier pago si su cuenta tiene
un saldo en crédito en la fecha en que recibamos dicho pago. En
general, los créditos en su cuenta, como por ejemplo, aquellos
generados por comerciantes o mediante transferencias monetarias
de persona a persona, no se consideran como pagos y no reducirán
su Pago Mínimo Total que Vence.

CARGOS POR TRANSACCIÓN
Fijaremos a su cuenta los siguientes Cargos por Transacción en la
misma categoría de saldo en la cual se registra la transacción,
[consulte la tabla de Información sobre Precios para conocer las
cantidades de los cargos].
Transferencia de Saldo
Adelanto de Dinero en Efectivo del Cajero Automático (ATM)

CONVERSIONES DE PAGOS
Procesamos la mayoría de los cheques de pago de forma
electrónica. Utilizamos la información de su cheque para crear una
transferencia electrónica de fondos. Cada vez que usted envía un
cheque, usted autoriza una transferencia electrónica de fondos
individual. También nos autoriza a procesar su cheque como cheque
o como giro en papel, según sea necesario. Podrá retirar fondos de
su cuenta a partir del mismo día en que recibamos su pago. Usted
no recibirá su cheque cancelado, debido a que se nos exige
destruirlo. Retendremos una copia electrónica.

Equivalente de Dinero en Efectivo
Cheque de Adelanto de Dinero en Efectivo
Depósito Directo
Protección contra Sobregiros
Adelanto de Dinero en Efectivo en Mostrador
Adelanto de Dinero en Efectivo en Línea en el Mismo Día
Compra de Transferencias por Cable

PAGO MÍNIMO TOTAL QUE VENCE
Usted puede pagar su saldo total pendiente en cualquier momento.
En cada ciclo de facturación, usted deberá pagar al menos el Pago
Mínimo Total que Vence que se indica en su estado de cuenta
mensual, a más tardar en su Fecha de Vencimiento de Pago. El Pago
Mínimo Total que Vence es la suma de todas las cantidades
atrasadas más el Pago Actual.

CARGOS DE LA CUENTA
Los siguientes cargos se imponen como Compras en el ciclo de
facturación en el cual se acumulen los cargos:
Una Cuota Anual: [consulte la tabla de Información sobre Precios
para conocer la cantidad del cargo]. La Cuota Anual se fijará cada
[mes de apertura de cuenta] si su cuenta se encuentra abierta o si
usted mantiene un saldo en su cuenta, independientemente de que
usted tenga o no privilegios de cargos activos.

El Pago Actual correspondiente a cada ciclo de facturación incluye
tres cantidades: (1) el 1.00% de su saldo (su Nuevo Saldo Total a
excepción de cualquier nuevo cargo por intereses y cualquier Nuevo
Cargo por Pago Atrasado), y (2) nuevos cargos por intereses, y (3)
cualquier nuevo Cargo por Pago Atrasado. Su Pago Actual no será
inferior a $35.00. Redondeamos la cantidad del pago hacia abajo
hasta el dólar más cercano.

Fijaremos un Cargo por Pago Atrasado en caso de que no
recibamos el Pago Mínimo Total que Vence que figura en su estado
de cuenta mensual en o antes de su Fecha de Vencimiento de Pago.
El Cargo por Pago Atrasado no superará el Pago Mínimo Total que
Vence inmediatamente anterior a la fijación del cargo. En la fecha
de transacción del Cargo por Pago Atrasado: [consulte la tabla de
Información sobre Precios para conocer la cantidad del cargo]

El Pago Mínimo Total que Vence no será mayor que su Nuevo Saldo
Total. Si se acredita un pago en su cuenta, pero el mismo se
devuelve sin pagar en un ciclo de facturación posterior, volveremos
a calcular el Pago Mínimo Total que Vence correspondiente al ciclo
de facturación en el cual se haya acreditado originalmente el pago.

Un Cargo por Pago Devuelto de [consulte la tabla de Información
sobre Precios para conocer las cantidades de los cargos] en caso de
que un pago en su cuenta sea devuelto por falta de fondos o por
cualquier otro motivo, aun cuando se pague al presentarse con
posterioridad (si decidimos presentar el pago de nuevo). El Cargo
por Pago Devuelto no superará el Pago Mínimo Total que Vence
inmediatamente anterior a la fijación del cargo, y nunca excederá la
cantidad del pago siendo devuelto.

CUÁNDO SE ACREDITARÁ SU PAGO A SU CUENTA
Acreditamos pagos enviados por correo en la fecha en que se
reciben, si el pago es: (1) recibido antes de las 5 p. m. hora local en
el domicilio que se indica en la parte de las remesas de su estado
de cuenta mensual; (2) pagado con un cheque girado en dólares
estadounidenses en una institución financiera de los Estados
Unidos o un giro monetario en dólares estadounidenses; y (3)
enviado en el sobre de respuesta y acompañado solamente con la
parte de las remesas de su estado de cuenta. Sin embargo, los
pagos enviados por correo no necesitan ser enviados en un sobre
de respuesta si le enviamos un estado de cuenta sin un sobre de
respuesta. Los pagos recibidos después de las 5 p. m. hora local en
el domicilio de remesa en cualquier día incluida la Fecha de
Vencimiento de Pago, pero que de otra manera cumplan con los
requisitos que se describen arriba, serán acreditados al día
siguiente. La acreditación de cualquier otro pago puede demorar
hasta cinco días.

PAGOS E INCUMPLIMIENTO
SU COMPROMISO DE PAGO
Usted se compromete a pagarnos las cantidades de todo el crédito
que usted obtenga, lo cual incluye todas las Compras,
Transferencias de Saldo y Adelantos de Dinero en Efectivo. Usted
también se compromete a pagarnos todas las cantidades de cargos
por intereses, otros cargos y cualquier otra transacción cargada a
su cuenta.
PAGOS EN SU CUENTA
Usted deberá pagar cada mes al menos el Pago Mínimo Total que
Vence que se indica en su estado de cuenta mensual, a más tardar
en su Fecha de Vencimiento de Pago. Los pagos deberán cumplir
con los requisitos establecidos en dicho estado de cuenta mensual;
estos requisitos podrán variar sin previo aviso. Usted puede pagar
la cantidad total que nos adeude en cualquier momento. Los pagos
efectuados en cualquier ciclo de facturación que sean mayores que
el Pago Mínimo Total que Vence no afectarán su obligación de
efectuar el siguiente Pago Mínimo Total que Vence. Si usted
efectúa un pago en exceso o si existe un saldo en crédito en su
cuenta, no pagaremos intereses sobre dichas cantidades.
Rechazaremos los pagos que no se emitan en dólares

CÓMO DISTRIBUIMOS SUS PAGOS
Los pagos mínimos mensuales serán necesarios cuando tenga un
saldo. Los pagos se distribuyen a los saldos registrados. Si su
cuenta tiene saldos con tasas APR diferentes, distribuiremos la
cantidad de su pago equivalente al Pago Mínimo Total que Vence
primero a los saldos sujetos a la tasa APR más baja. Las cantidades
de pago que excedan su Pago Mínimo Total que Vence se aplicarán
a los saldos sujetos a tasas APR más altas antes que a los saldos
con tasas APR más bajas. Si un pago es devuelto, nos reservamos el
derecho de debitar la cantidad del pago devuelto al saldo sujeto a la

4

tasa actual no promocional para Compras en la cuenta.

podrá ser menor que sus cargos por intereses. Usted deberá
efectuar el pago reducido en forma puntual para evitar un Cargo
por Pago Atrasado. Deberá volver a efectuar su Pago Mínimo Total
que Vence regular cada mes luego de cualquier modificación
efectuada en su pago mínimo mensual requerido.

EL COMPROMISO DE PAGO SE APLICA A TODAS LAS
PERSONAS
Todas las personas que inicialmente o posteriormente soliciten, se
les otorgue, acepten, garanticen o utilicen la cuenta serán
responsables de forma individual y conjunta por cualquier saldo
total pendiente. Si usted es responsable de pagar algún saldo total
pendiente, podremos negarnos a liberarle a usted de
responsabilidad hasta que todas las tarjetas, todos los cheques de
acceso y otros instrumentos de crédito pendientes en virtud de la
cuenta nos hayan sido devueltos, y hasta que usted nos pague el
saldo total pendiente que nos adeude en virtud de los términos de
este Acuerdo.

DISPONIBILIDAD DE CRÉDITO
SUS LÍNEAS DE CRÉDITO
Su Línea de Crédito Total y su Línea de Crédito en Efectivo se le
informan a usted cuando recibe su tarjeta y, generalmente, en cada
estado de cuenta mensual. La Línea de Crédito Total es la cantidad
de crédito disponible correspondiente a la cuenta; sin embargo, sólo
una parte de dicha cantidad se encuentra disponible para Adelantos
de Dinero en Efectivo del Banco. La Línea de Crédito en Efectivo es
aquella cantidad que usted tiene disponible para Adelantos de
Dinero en Efectivo del Banco.
La cantidad de crédito disponible en su Línea de Crédito en Efectivo
nunca excederá la cantidad de crédito disponible en su Línea de
Crédito Total.

INCUMPLIMIENTO
Usted se encontrará en incumplimiento de este Acuerdo si (1) usted
no efectúa algún Pago Mínimo Total que Vence requerido a más
tardar en su Fecha de Vencimiento de Pago; (2) su saldo total
pendiente excede su Línea de Crédito Total; (3) su saldo de
Adelantos de Dinero en Efectivo del Banco excede su Línea de
Crédito en Efectivo; o (4) usted no cumple con cualquier otro
término de este Acuerdo. Exclusivamente a los fines de determinar
la calificación y las obligaciones de pago de primas
correspondientes al seguro de crédito opcional adquirido a través
de Bank of America, se considerará que usted ha incurrido en
incumplimiento o morosidad en caso de que no realice un pago
dentro de los 90 días posteriores a su Fecha de Vencimiento de
Pago.

Podremos modificar sus líneas de crédito en forma periódica.
Tomamos dicha decisión sobre la base de una variedad de factores,
como por ejemplo su historial de pagos y transacciones con
nosotros, y la información que recibimos proveniente de terceras
partes, incluidas las agencias de informes de crédito. Las
cantidades que se indican en su estado de cuenta mensual como
crédito disponible no toman en cuenta Compras, Transferencias de
Saldo, Adelantos de Dinero en Efectivo, cargos por intereses,
cuotas, otros cargos ni ninguna otra transacción o crédito que se
registre en su cuenta con posterioridad a la Fecha de Cierre de
dicho estado de cuenta mensual.

CUÁNDO PODREMOS EXIGIR EL PAGO INMEDIATO
Si usted incurre en incumplimiento, además de nuestros otros
recursos en virtud de este Acuerdo, podremos exigir el pago
inmediato de su saldo total pendiente y, a menos que se encuentre
prohibido por las leyes vigentes, también podremos exigirle el pago
de los costos en que incurramos en cualquier procedimiento de
cobro, así como también de los honorarios razonables de abogados
en caso de que derivemos su cuenta para el cobro a un abogado que
no sea empleado asalariado nuestro.

MEDIDAS QUE PODREMOS TOMAR SI USTED INTENTA
EXCEDER SUS LÍNEAS DE CRÉDITO
El saldo total pendiente en su cuenta más las autorizaciones en
ningún momento deberá sobrepasar su Línea de Crédito Total. El
saldo total pendiente de sus Adelantos de Dinero en Efectivo del
Banco (más las autorizaciones) no deberá superar su Línea de
Crédito en Efectivo.

OTROS TÉRMINOS DE PAGO
Podremos aceptar pagos atrasados, pagos parciales o pagos con
cualquier anotación restrictiva, sin perder ninguno de nuestros
derechos en virtud de este Acuerdo. Esto significa que ningún pago,
incluidos aquellos pagos marcados como pagados en su totalidad o
con cualquier otra palabra restrictiva, podrá operar como acuerdo y
satisfacción, sin la aprobación previa por escrito por parte de uno
de nuestros funcionarios principales. Usted no podrá utilizar un
cheque posdatado para efectuar un pago. Si usted gira un cheque
de pago posdatado, podremos decidir pagarlo al momento de su
presentación o devolverlo sin acreditar a la persona que lo haya
presentado, sin esperar, en ninguno de los dos casos, hasta la fecha
indicada en el cheque. No seremos responsables ante usted por
ninguna pérdida o gasto que surja de la medida que decidamos
tomar.

Cada vez que usted intente realizar una transacción que ocasione
que su saldo pendiente aplicable (más las autorizaciones) exceda
una línea de crédito, podremos: (1) permitir la transacción sin
aumentar su línea de crédito; (2) permitir la transacción y
considerar como inmediatamente adeudada la cantidad de la
transacción que exceda la línea de crédito; o (3) negarnos a permitir
la transacción.
Si nos negamos a permitir la transacción, podremos notificarle a la
persona que haya intentado realizar la transacción que la misma ha
sido rechazada. Si nos negamos a permitir un Cheque de Adelanto
de Dinero en Efectivo o una Transferencia de Saldo, podremos
hacerlo informándole a la persona que presente el Cheque de
Adelanto de Dinero en Efectivo o la Transferencia de Saldo que el
crédito ha sido denegado, que no existen fondos suficientes para
pagar el Cheque de Adelanto de Dinero en Efectivo o la
Transferencia de Saldo, o de cualquier otra manera.

MODIFICACIONES A LOS PAGOS MÍNIMOS MENSUALES
REQUERIDOS
Podremos permitirle a usted, de forma periódica, omitir un pago
mensual o efectuar un pago reducido. Le notificaremos cuando
estas opciones se encuentren disponibles. Esto ocurrirá únicamente
de forma aislada, como por ejemplo cuando el banco trabaje con
prestatarios afectados por un desastre declarado a nivel federal. Si
en respuesta a esta notificación usted omite un pago o efectúa un
pago reducido, se acumularán en los saldos de su cuenta cargos por
intereses, cargos aplicables y otras transacciones regulares, si las
hubiera, conforme a este Acuerdo. La cantidad del pago reducido

PODREMOS SUSPENDER O CERRAR SU CUENTA
Podremos suspender o cerrar su cuenta, o dar por terminado de
otra manera su derecho a utilizar su cuenta. Podremos hacerlo en
cualquier momento y por cualquier motivo. Podemos optar por no
aceptar ningún cheque de acceso que se gire con posterioridad a la
fecha de vencimiento impresa en dicho cheque. Usted podrá cerrar
su cuenta en cualquier momento notificándonos por escrito o por
teléfono. Sus obligaciones en virtud de este Acuerdo continuarán
incluso después del cierre de la cuenta. Usted deberá destruir todas

5

las tarjetas, cheques de acceso u otros instrumentos de crédito de
la cuenta cuando la misma sea cerrada.

demás partes responsables y usuarios autorizados. La notificación
efectuada a cualquiera de ustedes será considerada una
notificación a todos ustedes. Usted puede permitir usuarios
autorizados en su cuenta de las siguientes maneras: (1)
informándonos que desea agregar a alguien a su cuenta como
usuario autorizado; (2) prestándole o de otro modo
proporcionándole intencionalmente a otra persona el acceso a su
tarjeta, número de cuenta o dispositivo de crédito; o (3) de
cualquier otra forma en la cual se pueda considerar legalmente que
usted le ha permitido a otra persona utilizar su cuenta o se le pueda
impedir legalmente negar que lo ha hecho. Deberá pensar con
detenimiento antes de permitirle a una persona transformarse en
usuario autorizado. Al hacerlo, usted autoriza a la persona a utilizar
su cuenta en la misma medida en que puede hacerlo usted, lo cual
incluye, sin limitación, la posibilidad de realizar cualquier Compra,
Transferencia de Saldo, Adelanto de Dinero en Efectivo, y de
permitir la utilización de su cuenta a terceros. Su cuenta no le
permite a usted limitar la naturaleza ni la magnitud de la autoridad
que usted le otorga a cualquier usuario autorizado, y usted no
intentará hacerlo. La autoridad de un usuario autorizado continuará
hasta que ambos nos notifiquen que cesa dicha autoridad y
devuelvan físicamente la tarjeta u otro dispositivo de crédito.

Cuando su cuenta sea cerrada, usted deberá comunicarse con
cualquier persona autorizada a cargar transacciones a su cuenta,
como por ejemplo, proveedores de servicios de Internet, gimnasios
o compañías de seguros. Estas transacciones podrán continuar
cargándose a su cuenta hasta que usted cambie la facturación.
Además, si creemos que usted ha autorizado una transacción o que
intenta utilizar su cuenta después de haber solicitado el cierre de la
cuenta, podremos permitir que la transacción sea cargada a su
cuenta.
NEGATIVA DE RESPETAR SU CUENTA
Podremos denegar cualquier transacción por cualquier motivo a
nuestro criterio. No seremos responsables de ninguna negativa de
respetar su cuenta. Esto podrá incluir la negativa de respetar su
tarjeta, su número de cuenta o cualquier cheque girado en su
cuenta. No seremos responsables de ninguna retención de su
tarjeta por parte nuestra, por parte de cualquier otra institución
financiera o por parte de cualquier proveedor de productos o
servicios.
TRANSACCIONES PREVIAMENTE AUTORIZADAS
RECURRENTES
Las transacciones previamente autorizadas recurrentes se producen
cuando usted autoriza a un comerciante a iniciar automáticamente
una transacción utilizando su cuenta recurrente. Si le emitimos a
usted una nueva tarjeta de crédito con un número diferente o una
fecha de vencimiento diferente, podremos (aunque no tenemos la
obligación de) proporcionar su nuevo número de tarjeta y su nueva
fecha de vencimiento a un comerciante con el que usted haya
establecido una transacción previamente autorizada recurrente a fin
de continuar con su transacción previamente autorizada recurrente.
Existirán determinadas circunstancias en las cuales usted deberá
comunicarse con el comerciante.

CHEQUES DE ACCESO
Usted puede solicitar una suspensión de pago de un cheque de
acceso suministrándonos el número del cheque de acceso, la
cantidad en dólares y el beneficiario, exactamente como figuran en
el cheque de acceso. Las solicitudes orales y escritas de suspensión
de pago de un cheque de acceso tendrán una vigencia de seis
meses a partir del día en que coloquemos la suspensión de pago.
Usted no podrá emitir un cheque de acceso posdatado en su
cuenta. En caso de que usted gire un cheque de acceso posdatado,
podremos decidir pagarlo en el momento de su presentación o
devolverlo sin pagar a la persona que lo haya presentado para el
pago, sin esperar, en ninguno de los dos casos, hasta la fecha
indicada en el cheque de acceso. No seremos responsables ante
usted por ninguna pérdida o gasto que surja de la medida que
decidamos tomar.

LIMITACIONES/ADVERTENCIAS
PROPÓSITOS PARA LA UTILIZACIÓN DE SU CUENTA
Usted no podrá utilizar esta cuenta para efectuar un pago en esta o
en cualquier otra cuenta de crédito con nosotros o con nuestras
afiliadas. Usted no podrá utilizar ni permitir que se utilice su cuenta
para realizar ninguna transacción ilegal. Usted utilizará su cuenta
únicamente para transacciones que sean legales en el lugar donde
las lleve a cabo. Podremos realizar un cargo en su cuenta por dichas
transacciones. No asumiremos ninguna responsabilidad si usted
lleva a cabo una transacción ilegal. Podremos rechazar la
autorización de cualquier transacción identificada como juego de
azar por Internet. Usted no podrá utilizar su cuenta para realizar
transacciones en ningún país o territorio, o con ninguna persona o
entidad, que se encuentre sujeto a sanciones económicas
administradas y aplicadas por la Oficina de Control de Bienes
Extranjeros (OFAC) del Departamento del Tesoro de los EE.UU. El
uso de su cuenta en dichos países será bloqueado.

VARIOS
PROTECCIÓN CONTRA SOBREGIROS
Si su cuenta de depósito que califica con Bank of America se
encuentra vinculada a esta cuenta, este servicio de protección
contra sobregiros permitirá la transferencia de fondos
(transferencias de protección contra sobregiros) desde esta cuenta
hacia la cuenta de depósito con Bank of America que usted designe
cuando ocurran transacciones en su cuenta de depósito, como por
ejemplo cheques u otros débitos que, en caso de ser pagadas,
causarían un sobregiro en la cuenta de depósito (transacciones de
sobregiro). Las transferencias de la protección contra sobregiros
incluyen transferencias automáticas para cubrir cargos de la cuenta
de depósito . Las transferencias de la protección contra sobregiros
se procesan después del cierre de las operaciones comerciales de
lunes a viernes y se consideran como Adelantos de Dinero en
Efectivo de la Protección contra Sobregiros.

PERSONAS QUE UTILIZAN SU CUENTA
Si usted le permite a cualquier persona utilizar su tarjeta, sus
cheques de acceso, su número de cuenta u otro instrumento de
crédito con la autorización para obtener crédito en su cuenta, usted
será responsable de todas las transacciones realizadas por dicha
persona, incluidas aquellas transacciones por las cuales usted no
haya planeado ser responsable, aunque la cantidad de dichas
transacciones ocasione la superación de una línea de crédito. Los
usuarios autorizados de esta cuenta podrán tener el mismo acceso
que los titulares de la cuenta a la información sobre la cuenta y sus
usuarios. Podremos enviar los materiales de la cuenta (tarjetas,
estados de cuenta y notificaciones) a cualquier parte responsable, y
dicha persona será responsable de entregar los materiales a las

Antes del 20 de agosto de 2021, las transacciones de sobregiro de
cada día que recibirán fondos de esta cuenta serán sumadas y
redondeadas al siguiente incremento de $100.00 hasta su Línea de
crédito de dinero en efectivo disponible, independientemente de
quién haya iniciado las transacciones de sobregiro. Por ejemplo, si
su cuenta de depósito tiene un saldo de $5.00 y se presenta para su
pago un cheque u otra partida de débito por $125.00 que, en caso
de ser pagado, causaría un sobregiro en su cuenta de depósito, y su
cuenta está sujeta a un Cargo por Adelanto de Dinero en Efectivo
de la Protección contra Sobregiros, entonces se realizará una
transferencia de protección contra sobregiros de $200.00 a su

6

cuenta de depósito y se registrará en esta cuenta un Adelanto de
Dinero en Efectivo de la Protección contra Sobregiros de $200.00
(además del Cargo por Adelanto de Dinero en Efectivo de la
Protección contra Sobregiros). La Parte del Crédito Disponible para
Dinero en Efectivo en esta cuenta deberá ser suficiente para cubrir
la cantidad de las transacciones de sobregiro que recibirán fondos
de esta cuenta (recibidas por Bank of America en ese día)
redondeada al siguiente incremento de $100.00 (pero sin incluir
ningún cargo por protección contra sobregiros); de lo contrario, se
rechazarán una o más transacciones de sobregiro correspondientes
a ese día. Sin embargo, si la Parte del Crédito Disponible para
Dinero en Efectivo en esta cuenta es superior a la cantidad de las
transacciones de sobregiro, pero la Parte del Crédito Disponible
para Dinero en Efectivo es insuficiente para que la cantidad de las
transacciones de sobregiro se redondee al siguiente incremento de
$100.00, entonces la cantidad de la transacción de sobregiro será la
cantidad de su Parte del Crédito Disponible para Dinero en Efectivo.
Los pagos o créditos a esta cuenta pueden no afectar su Parte del
Crédito Disponible para Dinero en Efectivo hasta después de la
fecha de registro de los pagos o créditos.

Protección contra Sobregiros, a las transferencias de protección
contra sobregiros se les fijará el cargo por Adelanto de Dinero en
Efectivo de la Protección Contra Sobregiros correspondiente a cada
uno de dichos Adelantos de Dinero en Efectivo. Las transferencias
de Protección contra Sobregiros incurren en cargos por intereses a
partir de la fecha de la transacción. Podríamos permitir o negarnos
a permitir cualquier transferencia de protección contra sobregiros
que pudiera ocasionar que usted exceda la Línea de crédito de
dinero en Efectivo en esta cuenta. Este servicio de protección
contra sobregiros será cancelado en forma automática si esta
cuenta es cerrada por usted o por nosotros, o en cualquier
momento a solicitud de usted. Sus transacciones de sobregiro
continúan sujetas a los términos de su cuenta de depósito con Bank
of America, a cualquier acuerdo de inscripción relacionado y a este
Acuerdo.
LLAMADAS TELEFÓNICAS: LLAMAR, ESCUCHAR Y GRABAR
Usted acepta y autoriza a Bank of America, cualquiera de sus
afiliadas, sus empleados de mercadeo y a los contratistas
independientes, que incluye prestadores, proveedores y agentes de
cobro, a escuchar y/o grabar cualquiera de sus conversaciones
telefónicas y otras comunicaciones electrónicas con nuestros
representantes o con los representantes de cualquiera de dichas
compañías para fines comerciales razonables, incluso por seguridad
y control de calidad. No le recordaremos que podríamos estar
escuchando o grabando su llamada al comienzo de esta, a menos
que lo exija la ley.

Vigente a partir del 20 de agosto de 2021, las transacciones de
sobregiro de cada día que reciban fondos de esta cuenta serán
sumadas hasta su Línea de crédito de dinero en efectivo disponible,
independientemente de quién haya iniciado las transacciones de
sobregiro. Por ejemplo, si su cuenta de depósito tiene un saldo de
$5.00 y se presenta para su pago un cheque u otra partida de
débito por $125.00 que, en caso de ser pagado, causaría un
sobregiro en su cuenta de depósito, y su cuenta de depósito está
sujeta a un cargo por transferencia de protección contra sobregiros
de $12.00 a la cuenta de depósito, entonces se realizará una
transferencia de protección contra sobregiros de $132.00 (saldo
sobregirado de $120.00 más cargo por transferencia de protección
contra sobregiros de $12.00 a la cuenta de depósito) a su cuenta de
depósito y se registrará en esta cuenta un Adelanto de Dinero en
Efectivo de la Protección contra Sobregiros de $132.00. La Parte
del Crédito Disponible para Dinero en Efectivo en esta cuenta
deberá ser suficiente para cubrir la cantidad de las transacciones de
sobregiro que recibirán fondos de esta cuenta (recibidas por Bank
of America en ese día) de lo contrario, se rechazarán una o más
transacciones de sobregiro correspondientes a ese día. Los pagos o
créditos a esta cuenta pueden no afectar su Parte del Crédito
Disponible para Dinero en Efectivo hasta después de la fecha de
registro de los pagos o créditos.

Si nos ha proporcionado un número de teléfono celular
directamente a nosotros, usted otorga su consentimiento y acepta
recibir mensajes de texto o llamadas de servicio a su teléfono
celular de parte nuestra. Por ejemplo, podríamos llamarle por
alertas de fraude o por una cantidad que nos adeude (llamadas de
cobro) en su cuenta. Por cada comunicación o llamada que
realicemos a su teléfono celular o particular, usted otorga su
consentimiento y acepta que esas llamadas pueden ser marcadas
automáticamente, incluidas comunicaciones o mensajes de texto
pregrabados. Esto puede incluir comunicaciones de compañías que
trabajen en representación nuestra para prestar servicio a su
cuenta. Pueden aplicarse tarifas por mensajes y datos.
Revocación de la comunicación: Si no quiere recibir comunicaciones
automáticas para esta cuenta, que incluyen mensajes o textos
pregrabados, como las que se mencionan anteriormente, usted
debe (1) proporcionarnos una notificación por escrito que revoque
su consentimiento previo e (2) incluir, en esa misma notificación
escrita, su nombre y dirección de correo postal tal y como aparecen
en la cuenta, y los últimos cuatro dígitos de su número de cuenta.
Debe enviar la notificación a la dirección que aparece a
continuación.
PO Box 982236
El Paso, TX 79998-2236

No fijaremos un cargo por Adelanto de Dinero en Efectivo de la
Protección contra Sobregiros para ninguna transferencia de
protección contra sobregiros desde esta cuenta a una cuenta de
depósito de Bank of America vinculada, si determinamos que (a) su
cuenta de depósito se ha sobregirado por una cantidad total
inferior a $12.00 luego de que finalicemos el procesamiento
correspondiente al día, o (b) cada transacción de sobregiro
procesada ese día es de $1.00 o menos. Vigente a partir del 18 de
junio de 2021, no fijaremos un cargo por transferencia de
protección contra sobregiros a la cuenta de depósito para cualquier
transferencia de protección contra sobregiros desde esta cuenta a
una cuenta de depósito de Bank of America vinculada abierta en GA,
IL, KY, MI o TN, y vigente a partir del 20 de agosto de 2021 para
cualquier transferencia de protección contra sobregiros desde esta
cuenta a una cuenta de depósito de Bank of America vinculada
abierta en todas las demás ubicaciones, si determinamos que (a) su
cuenta de depósito se ha sobregirado por una cantidad total de
$1.00 o menos después de que hayamos finalizado el
procesamiento correspondiente a ese día, o (b) cada transacción de
sobregiro procesada ese día es de $1.00 o menos. Si su cuenta está
sujeta a un cargo por Adelanto de Dinero en Efectivo de la

AGENCIAS DE INFORMES DE CRÉDITO; RECOPILACIÓN E
INTERCAMBIO DE INFORMACIÓN
Usted nos autoriza a recopilar información sobre su persona para
poder llevar a cabo nuestras operaciones y proporcionar el servicio
de calidad superior que usted espera, incluida la información que
recibamos sobre su persona, la información que recibamos de
terceros, como por ejemplo, agencias de informes de crédito, y la
información con respecto a sus transacciones con nosotros y otras
compañías. Usted nos autoriza a compartir dicha información sobre
su persona o sobre su cuenta con nuestras afiliadas y con terceros.
Usted puede tener el derecho de elegir que no se comparta parte

7

de la información ("opt out"). Para obtener más detalles, consulte
nuestra Notificación de Privacidad.

En su carta, deberá suministrarnos la siguiente información:
• Información de la cuenta: su nombre y número de
cuenta.

Si usted cree que le hemos suministrado información inexacta o
incompleta sobre su persona o su cuenta a una agencia de
informes de crédito, escríbanos a: Bank of America, N.A., Credit
Reporting Agencies, P.O. Box 653059, Dallas, TX 75265-3059.
Por favor incluya su nombre, dirección, número de teléfono
particular y número de cuenta, y explique cuál es la información
que usted considera inexacta o incompleta.

• Cantidad en dólares: la cantidad en dólares del presunto
error.
• Descripción del problema: si usted cree que existe un
error en su factura, describa lo que usted considera
incorrecto y el motivo por el cual usted cree que se
trata de un error.
Deberá comunicarse con nosotros:

BENEFICIOS
Podremos ofrecerle determinados beneficios y servicios con su
cuenta. Cualquier beneficio o servicio no forma parte de este
Acuerdo, pero se encuentra sujeto a los términos y restricciones
que se describen en la Guía de Beneficios y en otros documentos
oficiales suministrados a usted en forma periódica por o en nombre
de Bank of America. Podremos ajustar, agregar o eliminar
beneficios y servicios en cualquier momento y sin suministrarle a
usted notificación.

• Dentro de los 60 días posteriores a la fecha en que el
error haya aparecido en su estado de cuenta.
• Como mínimo 3 días laborables antes de la fecha en
que se encuentre programado un pago automatizado, si
usted desea suspender el pago sobre la cantidad que
considera incorrecta.
Usted deberá notificarnos cualquier posible error por escrito. Puede
llamarnos por teléfono, pero si lo hace no estaremos obligados a
investigar cualquier posible error y usted posiblemente deba pagar
la cantidad en cuestión.

PODREMOS VENDER SU CUENTA
En cualquier momento y sin suministrarle a usted notificación,
podremos vender, ceder o transferir su cuenta, cualquier cantidad
adeudada en su cuenta, este Acuerdo, o nuestros derechos u
obligaciones en virtud de su cuenta o este Acuerdo a cualquier
persona o entidad. La persona o entidad a quien le efectuemos
dicha venta, cesión o transferencia tendrá derecho a obtener todos
nuestros derechos y asumirá nuestras obligaciones en virtud de
este Acuerdo, en la medida de dicha venta, cesión o transferencia.

Nota: resulta de mucha utilidad que su carta incluya la fecha de
transacción y el número de referencia correspondiente al cargo, si
se encuentran disponibles.
Qué Sucederá Una Vez que Recibamos Su Carta
Cuando recibamos su carta, deberemos hacer dos cosas:
1. Dentro de los 30 días posteriores a la recepción de su
carta, deberemos informarle que hemos recibido su
carta. También le informaremos si ya hemos corregido
el error.

USTED DEBERÁ NOTIFICARNOS CUANDO CAMBIE DE
DOMICILIO
Usted deberá notificarnos de inmediato cuando cambie su
domicilio. Nosotros también podremos cambiar su domicilio si así
nos lo notifica la oficina de correos o terceras partes.

2. Dentro de los 90 días posteriores a la recepción de su
carta, deberemos corregir el error o explicarle a usted
por qué creemos que la factura es correcta.

LEYES VIGENTES
Este Acuerdo se celebra en Carolina del Norte y le extendemos
crédito a usted desde Carolina del Norte. Este Acuerdo se encuentra
regido por las leyes del Estado de Carolina del Norte
(independientemente de sus principios de conflictos de leyes), y por
cualquier ley federal vigente.

Mientras investigamos si se ha producido o no un error:
• No podremos intentar cobrar la cantidad en cuestión, ni
reportarle a usted como moroso con respecto a dicha
cantidad.

LAS DISPOSICIONES DE ESTE ACUERDO SON SEPARABLES
Si se determina que alguna de las disposiciones de este Acuerdo no
es válida, las disposiciones restantes continuarán en vigencia.

• El cargo en cuestión podrá permanecer en su estado de
cuenta, y podremos continuar cobrándole a usted
intereses sobre dicha cantidad.

Utilizamos encabezados de secciones (como por ejemplo, Tipos de
Transacciones) para organizar este Acuerdo. Los encabezados se
utilizan únicamente con fines de referencia.

• Si bien usted no tiene la obligación de pagar la
cantidad en cuestión, será responsable por el resto de
su saldo.

USO NO AUTORIZADO DE SU CUENTA
Por favor notifíquenos de inmediato con respecto a la pérdida, robo
o posible uso no autorizado de su cuenta al 1.800.421.2110.

• Podremos aplicar cualquier cantidad impagada contra
su Línea de Crédito Total.
Luego de que finalicemos nuestra investigación, sucederá una de
dos cosas:

SUS DERECHOS DE FACTURACIÓN

• Si determinamos que se ha producido un error: usted
no tendrá la obligación de pagar la cantidad en cuestión
ni ningún tipo de intereses u otros cargos relacionados
con dicha cantidad.

Conserve este Documento para Uso Futuro
Esta notificación le proporciona información sobre sus
derechos y nuestras responsabilidades en virtud de la Ley de
Igualdad de Facturación de Crédito.

• Si consideramos que no se ha producido ningún error:
usted tendrá la obligación de pagar la cantidad en
cuestión, junto con los intereses y cargos aplicables. Le
enviaremos a usted un estado de cuenta con la
cantidad que usted adeuda y la fecha de vencimiento
del pago. En ese momento podremos reportarle a usted
como moroso, lo cual incluye a las agencias de
informes de crédito, si no paga la cantidad que
consideramos que usted adeuda.

Qué Hacer si Usted Descubre un Error en Su Estado de
Cuenta
Si usted cree que existe un error en su estado de cuenta, escríbanos
a:
Bank of America
P.O. Box 672050
Dallas, TX 75267-2050

8

Si usted recibe nuestra explicación pero aún considera que su
factura es incorrecta, deberá escribirnos en el término de 10 días
para indicarnos que continúa negándose a pagar. Si lo hace, no
podremos reportarle a usted como moroso sin reportar también
que usted cuestiona su factura. Deberemos informarle a usted el
nombre de cualquier persona o entidad ante la cual le hayamos
reportado a usted como moroso, y deberemos informar a dichas
organizaciones cuando el asunto haya sido resuelto entre nosotros.
Si no seguimos todas las reglas que se indican arriba, usted no
tendrá la obligación de pagar los primeros $50 de la cantidad que
usted cuestione, aunque su factura sea correcta.
Sus Derechos si Usted Está Insatisfecho con Sus Compras de
Tarjeta de Crédito
Si usted está insatisfecho con los productos o servicios que haya
comprado con su tarjeta de crédito y ha intentado de buena fe
corregir el problema con el comerciante, usted podría tener el
derecho de no pagar la cantidad restante adeudada sobre la
compra.
Para hacer uso de este derecho, todos los siguientes enunciados
deberán ser ciertos:
1. La compra deberá haberse realizado en su estado de
residencia o dentro de un área de 100 millas de su
dirección postal actual, y el precio de compra debe
haber sido superior a los $50. (Nota: ninguno de estos
requisitos es necesario si su compra se realizó de
acuerdo con un anuncio que le hayamos enviado por
correo a usted, o si somos propietarios de la compañía
que le vendió a usted los productos o servicios).
2. Usted deberá haber utilizado su tarjeta de crédito para
la compra. Las compras realizadas con adelantos de
dinero en efectivo provenientes de un cajero
automático (ATM) o con un cheque que acceda a su
cuenta de tarjeta de crédito no califican.
3. Usted no deberá haber pagado aún la compra en su
totalidad.
Si se cumplen todos los criterios que se indican arriba y usted aún
está insatisfecho con la compra, comuníquese con nosotros por
escrito a:
Bank of America
P.O. Box 672050
Dallas, TX 75267-2050
Durante nuestra investigación, se aplican a la cantidad en disputa
las mismas reglas que se indican arriba. Luego de que finalicemos
nuestra investigación, le informaremos nuestra decisión. En ese
momento, si consideramos que usted adeuda una cantidad y usted
no efectúa el pago, podremos reportarle a usted como moroso.
©2021 Bank of America Corporation. Todos los derechos
reservados.

9

